      Department of Homeland Security



              Review of Costs Invoiced by the
              City of San Jose Relating to the
     Terminal B Checked Baggage Screening Project
     at the Norman Y. Mineta San Jose International
      Airport Under Other Transaction Agreement
              Number HSTS04-09-H-REC161




            American Recovery and Reinvestment Act of 2009



OIG-12-40                                                    February 2012

                                                          Office of Inspector General

                                                          U.S. Department of Homeland Security
                                                          Washington, DC 20528




                                      FEB 16 2012

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audits, inspections, and special reports prepared
as part of our oversight responsibilities for programs, grants, and projects administered by the
Department under the American Recovery and Reinvestment Act of 2009 (Recovery Act).

This report presents the results of our audit of the costs invoiced for reimbursement by the City
of San Jose under an agreement funded by the Recovery Act from the Transportation Security
Administration. The purpose of the agreement was to finance a portion of the costs of
modifications to the Norman Y. Mineta San Jose International Airport to accommodate a
checked baggage inspection system.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust this report
will result in more effective, efficient, and economical operations. We express our appreciation
to all of those who contributed to the preparation of this report.



                                             Anne L. Richards
                                             Assistant Inspector General for Audits
Table of Contents/Abbreviations

Executive Summary .........................................................................................................................1


Background ......................................................................................................................................2


Results of Review ............................................................................................................................3


    Unsupported Owner-Controlled Insurance Program Costs ........................................................3 


    Use of American Iron, Steel, and Manufactured Goods .............................................................4 


Recommendations............................................................................................................................5


Management Comments and OIG Analysis ....................................................................................5 



Appendices
  Appendix A:          Purpose, Scope, and Methodology.........................................................................6 

  Appendix B:          Management Comments to the Draft Report .........................................................8 

  Appendix C:          Major Contributors to this Report ........................................................................11 

  Appendix D:          Report Distribution...............................................................................................12



Abbreviations
     CBIS                Checked Baggage Inspection System 

     DHS                 Department of Homeland Security 

     OIG                 Office of Inspector General 

     OTA                 Other Transaction Agreement

     OMB                 Office of Management and Budget 

     TSA                 Transportation Security Administration                                 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                          The Transportation Security Administration entered into an Other
                          Transaction Agreement with the City of San Jose to fund a portion of the
                          costs to modify Terminal B at the Norman Y. Mineta San Jose
                          International Airport to incorporate a checked baggage inspection system.
                          Under the agreement, the Transportation Security Administration agreed
                          to reimburse the City of San Jose up to $20,916,360 for designing,
                          managing, and building the project. At the time of our audit, the
                          Administration had paid the City of San Jose $14,387,182 on the basis of
                          invoices submitted through March 31, 2011.

                          We conducted our audit to determine whether invoiced costs were
                          allowable, allocable, and reasonable according to the funding agreement
                          and applicable federal requirements.

                          We concluded that costs of $254,092 invoiced for owner-controlled
                          insurance were questionable for reimbursement because they were not
                          adequately supported by the accounting records. Also, we determined that
                          the City of San Jose complied with the requirements for submitting
                          quarterly reports to the federal government and for paying prevailing
                          wages, but could not provide adequate support that it complied with the
                          requirement for buying goods manufactured in America. The report
                          contains two recommendations to address unsupported invoiced costs and
                          to ensure City of San Jose compliance with the requirement to buy
                          American goods. The Administrator concurred with the two
                          recommendations.




 Review of Costs Invoiced by the City of San Jose Relating to the Terminal B Checked Baggage Screening Project at the 

Norman Y. Mineta San Jose International Airport Under Other Transaction Agreement Number HSTS04-09-H-REC161 


                                                       Page 1
Background
                          On February 17, 2009, Congress enacted the American Recovery and
                          Reinvestment Act of 2009 (Recovery Act) to preserve and create jobs,
                          promote economic recovery, and invest in transportation, environmental
                          protection, and other infrastructure that will provide long-term economic
                          benefits. The Recovery Act appropriated $1 billion to the Transportation
                          Security Administration (TSA) for “procurement and installation of
                          checked baggage explosive detection systems and checkpoint explosives
                          detection equipment….” TSA awarded $574,023,483 of that amount to 25
                          airport organizations for 29 projects modifying airports to accommodate
                          new baggage-screening equipment.

                          On March 5, 2009, TSA informed the City of San Jose (City) that the
                          City’s explosive detection system project in Terminal B of the Norman Y.
                          Mineta San Jose International Airport was under consideration for
                          Recovery Act funding. The City had already awarded a design-build
                          contract for the Terminal B area and issued four task orders totaling
                          $25,023,637 for the baggage-handling system. Subsequently, the City
                          estimated that TSA’s Checked Baggage Inspection System (CBIS) project
                          represented about $21,257,400 of the total cost. In addition, the City
                          requested $1,983,000 as schedule impact costs for potential delays in the
                          TSA delivery of the screening equipment (CTX-9800 machines).
                          Negotiations between the City and TSA resulted in the award of Recovery
                          Act funds of $20,916,360, which represented 90% of the estimated
                          eligible project costs of $23,240,400 ($21,257,400 plus $1,983,000).

                          TSA authorized the funding under Other Transaction Agreement (OTA)
                          number HSTS04-09-H-REC161, dated September 28, 2009. The OTA, as
                          amended, runs from April 1, 2009, through June 30, 2011, and requires the
                          City to submit invoices for reimbursement of project costs. Reimbursement
                          for eligible project costs is based on the scope of the agreement; Office of
                          Management and Budget (OMB) Circular A-87, Cost Principles for State,
                          Local and Indian Tribal Governments; and the TSA publication
                          Reimbursable and Non-Reimbursable Costs for the Electronic Baggage
                          Screening Program, version 1.0 June 2008. As of March 31, 2011, the
                          City had invoiced costs of $14,387,182, which it incurred from April 2009
                          through March 2011. The costs invoiced by the City represented 90% of
                          the costs incurred.

                          The agreement also requires the City to comply with OMB Circular A­
                          133, Audits of States, Local Governments, and Nonprofit Organizations,
                          and Recovery Act provisions to submit quarterly recipient reports to the
                          federal government; pay prevailing wages as determined by the Secretary


 Review of Costs Invoiced by the City of San Jose Relating to the Terminal B Checked Baggage Screening Project at the 

Norman Y. Mineta San Jose International Airport Under Other Transaction Agreement Number HSTS04-09-H-REC161 


                                                       Page 2
                          of Labor; and use American1 iron, steel, and manufactured goods. The
                          objective of this audit was to determine whether costs invoiced by the City
                          were allowable, allocable, and reasonable according to the funding
                          agreement and applicable federal requirements.

Results of Review
        We determined that invoiced costs of $14,133,090 were allowable, allocable, and
        reasonable. We identified $254,092 of costs that were questionable for reimbursement
        because they were not adequately supported by the accounting records. We also
        concluded that the City complied with the requirements for submitting quarterly reports
        and for paying prevailing wages. The City could not, however, provide adequate support
        that it complied with the requirement for buying goods manufactured in America. We
        are recommending that TSA examine the relevant project documents to ensure that 95%
        of the project was built with American products.

        Unsupported Owner-Controlled Insurance Program Costs
                 The City invoiced TSA $332,894 for insurance program costs. We determined
                 that the amount consisted of $78,802 for the costs of general liability premiums,
                 workers’ compensation, builder risk, and broker fees, and $254,092 for estimated
                 future liability. The City based the estimate on allocations of incurred insurance
                 costs plus projected insurance expenses. The basic guidelines in OMB Circular
                 A-87 say that to be allowable, a cost must be properly documented and be
                 allocable to the federal award, among other things. The circular says that “a cost
                 is allocable to a particular cost objective if the goods or services involved are
                 chargeable or assignable to such cost objective in accordance with relative
                 benefits received.” In addition, Article IV of the OTA states that “TSA will
                 reimburse the City on an actual expense basis supported by one or more
                 invoices….” Although we believe that insurance program costs may be allocated
                 to the CBIS project, we classified the $254,092 as unsupported because the
                 amount was an estimate based on future costs.

                 After the audit exit conference, the City provided insurance invoices and its
                 analysis of insurance program expenses for our examination. The City’s analysis
                 used labor costs and construction costs to allocate the total invoiced insurance
                 program costs to benefiting activities. Using the City’s allocation methodology
                 would result in questionable costs of $127,210. Although the City’s cost
                 allocation methodology seemed reasonable, we were not able to validate that the
                 costs supporting the bases used to allocate the insurance costs were applicable to

1
  On October 13, 2009, the Department of Homeland Security (DHS) issued a limited waiver of the “buy American”
requirements for each TSA Electronic Baggage Screening Program project. The waiver specifies that at least 95%
of the costs of each project will comply with the buy American requirements of Section 1605 of the Recovery Act,
and allows up to 5% of total project costs to be used for non-American products.

 Review of Costs Invoiced by the City of San Jose Relating to the Terminal B Checked Baggage Screening Project at the
Norman Y. Mineta San Jose International Airport Under Other Transaction Agreement Number HSTS04-09-H-REC161

                                                       Page 3
                 the period covered by the OTA. Consequently, we retained our classification of
                 the entire $254,092 as unsupported.

        Use of American Iron, Steel, and Manufactured Goods
                 Section 1605 of the Recovery Act requires the use of American iron, steel, and
                 manufactured goods in the construction of Recovery Act projects. Under DHS’
                 limited waiver of the requirement for TSA’s Electronic Baggage Screening
                 Program projects, up to 5% of the total project costs may be used to purchase non-
                 American goods. The OTA includes a list of some 42 individual baggage-
                 handling system components that TSA and the City agreed would be exempt from
                 the buy American requirements. However, the City’s support to demonstrate
                 compliance with the buy American requirement was incomplete.

                 Neither the City nor the contractor obtained any letters from the baggage-handling
                 system subcontractor or the individual vendors regarding the source of the
                 components used for the CBIS project. The contractor did prepare a spreadsheet,
                 dated May 17, 2010, that included a schedule of values for the CBIS project, the
                 names of the subcontractor and vendors who provided the components for the
                 various work activities, and the identification of American and foreign products
                 used. The spreadsheet showed that 5.5% of the estimated materials costs were
                 from non-American sources. However, we could not validate the accuracy of the
                 spreadsheet without letters or other documents from the subcontractor and
                 vendors certifying the source of the materials used on the project.

                 TSA officials have not examined the City’s compliance with the requirement to
                 use American goods. TSA did publish an administrative checklist to aid
                 contracting officials in determining buy American compliance on February 3,
                 2011. TSA’s Director, Security Technology Acquisition Division, told us that
                 TSA is developing procedures to implement the checklist.

                 TSA should use the checklist to help determine whether the City complied with
                 the buy American requirement for the CBIS project. City officials agreed that the
                 documentation showing compliance with the buy American requirements was
                 incomplete. The officials also advised that the TSA guidelines were not available
                 when the project was constructed.




 Review of Costs Invoiced by the City of San Jose Relating to the Terminal B Checked Baggage Screening Project at the 

Norman Y. Mineta San Jose International Airport Under Other Transaction Agreement Number HSTS04-09-H-REC161 


                                                       Page 4
        Recommendations
                 We recommend that TSA’s Contracting Officer:

                 Recommendation #1: Resolve the $254,092 of unsupported owner-controlled
                 insurance program costs.

                 Recommendation #2: Review the iron, steel, and manufactured goods used in
                 the CBIS project to determine whether the City complied with applicable “buy
                 American” requirements.

        Management Comments and OIG Analysis
                 TSA Comments to Recommendation#1:

                 TSA Concurs: TSA said that it will “work with the City to recoup $254,092
                 in unsupported future insurance liability. This adjustment will be attained by
                 TSA receiving a future invoice from the City reflective of a $254,092
                 reduction in total reimbursable CBIS costs.”

                 OIG Analysis:

                 The TSA decision sufficiently responds to the recommendation. However, the
                 recommendation will remain open until TSA provides us with a copy of the
                 invoice with the $254,092 reduction.

                 TSA Comments to Recommendation#2:

                 TSA Concurs: TSA said that the contracting officials will work with the City
                 to obtain certification from the subcontractor and vendors.

                 OIG Analysis:

                 The TSA decision sufficiently responds to the recommendation. However, the
                 recommendation will remain unresolved until TSA provides us with a
                 timeframe for completion of its planned actions and will remain open until
                 TSA provides us with evidence that it has obtained the certification.




 Review of Costs Invoiced by the City of San Jose Relating to the Terminal B Checked Baggage Screening Project at the 

Norman Y. Mineta San Jose International Airport Under Other Transaction Agreement Number HSTS04-09-H-REC161 


                                                       Page 5
Appendix A
Purpose, Scope, and Methodology

                           The objective of this audit was to determine whether costs invoiced by the
                           City of San Jose are allowable, allocable, and reasonable according to the
                           funding agreement and applicable federal requirements. Our audit covered
                           invoiced costs of $14,387,182 for the period April 1, 2009, to March 31,
                           2011. This represents the total amount invoiced as of May 13, 2011.

                           Our tests and procedures included the following:

                               •	 Reviewing TSA project files, the award agreement and
                                  modifications, the Recovery Act, and TSA and OMB guidelines
                               •	 Interviewing TSA officials to obtain an understanding of the
                                  project and project management
                               •	 Examining City accounting records supporting amounts invoiced
                               •	 Interviewing City officials to obtain an understanding of project
                                  management, accounting, procurement, and invoicing
                               •	 Inspecting the CBIS project
                               •	 Reviewing the audit working papers of the certified public
                                  accounting firm that performed the Single Audit of the City for the
                                  fiscal year ending June 30, 2010.

                           The Single Audit of the City was performed by Macias, Gini, &
                           O’Connell LLP and included Recovery Act-funded CBIS project costs
                           totaling $13,479,872 (about 94% of invoiced costs). The Single Audit
                           report classified the CBIS as a major program and assessed the City as a
                           low risk.2 The Single Audit report did not identify any questionable costs
                           related to the CBIS or any deficiencies in internal controls that were
                           identified as material weaknesses.

                           We also tested City records supporting costs invoiced to determine
                           compliance with OMB Circular A-87 and with other terms and conditions
                           of the agreement. We considered the City’s internal controls over the
                           administration of TSA funds in determining our audit procedures.

                           We conducted this performance audit between April 11 and June 28, 2011,
                           pursuant to the Inspector General Act of 1978, as amended, and according
                           to generally accepted government auditing standards. Those standards
                           require that we plan and perform the audit to obtain sufficient, appropriate
                           evidence to provide a reasonable basis for our findings and conclusions
                           based upon our audit objectives. We believe that the evidence obtained


2
  A low risk assessment results from the preceding annual Single Audit presenting an unqualified opinion on the
entity’s financial statements and the schedule of expenditures of federal awards, and reporting no deficiencies in
internal controls that were identified as material weaknesses under the requirements of generally accepted
government auditing standards. This assessment allows for reduced audit coverage.

 Review of Costs Invoiced by the City of San Jose Relating to the Terminal B Checked Baggage Screening Project at the
Norman Y. Mineta San Jose International Airport Under Other Transaction Agreement Number HSTS04-09-H-REC161

                                                        Page 6
Appendix A
Purpose, Scope, and Methodology

                          provides a reasonable basis for our findings and conclusions based upon
                          our audit objectives.

                          We appreciate the cooperation of City of San Jose and TSA officials in
                          providing the information and access necessary to accomplish this review.




 Review of Costs Invoiced by the City of San Jose Relating to the Terminal B Checked Baggage Screening Project at the 

Norman Y. Mineta San Jose International Airport Under Other Transaction Agreement Number HSTS04-09-H-REC161 


                                                       Page 7
Appendix B
Management Comments to the Draft Report




                                                                                      u.s. Department ofHomehuwl Security
                                                                                      I'lul Suuth 12th Street
                                                                                      ArlinglOll., VA ZlJ5'J8


                                                                                      Transportation
                   IECOl2D11                                                          Security
                                                                                      Administration

                                                  INFORMA nON


           MEMORANDUM FOR:              Charles Edwards
                                        Acting Inspector General
                                        U.S. Department of Homeland SeclJril)'
                                                             "           .    /   l

           FROM:                        John S, PistoleC;J.,tC,   c'+"       (>"-;i-:~;';-«.-<_
                                        AdministratorC7

           SUBJECT:                     Transportation Security Administration's (TSA) Response to the
                                        {l.S. Department of Homeland Security (DHS) Ollice of Inspector
                                        General's OIG Draft Report titled Review o(Costs Invoiced by the
                                        City o/San Jose Relating to the Terminal B Checked Baggage
                                        Screening Project al the Norman Y. A1inela San Jose inlernmional
                                        Airport tinder Other Transaction Agreement Number R'IT.'104-09-
                                        H-REC161- FO[lO




           This memorandum constitutes TSA's formal Agency response to the U.S. Department of
           Homeland Security (DHS), Office of Inspector General (OIG) draft letter report, Review o.fCosts
           invoiced by the City o/San Jose Relating to the Terminal B Checked Baggage Screening Project
           at the Norman r:Minetu San Jose International Airport Under Other TransaCljon Agreement
           Number HSTS04-09-H-RECI61-FOUO dated October 2011. TSA appreciates the opportunity
           to review and provide comments to your draft report.

           Background

           As part of the American Recovery and Reinvestment Act of 2009 (Recovery Act), TSA was
           appropriated $1 billion tor "procurement and installation of checked baggage explosive detection
           systems and checkpoint explosives detection equipment ... " TSA has awarded more than $500
           million in Recovery Act funding to airport organizations for modifying facilities to accommodate
           nt:w baggage-screening equipment through the Electronic Baggage Screening Program (EBSP).

           One of these Recovery Act awards was to the City of San Jose (the City) for a Checked Baggage
           Inspection System (CHIS) project in Tenninal B of the Norman Y. Mineta San Jose International
           Airport (SJC) through an Other Transaction Agreement (OTA) dated September 28, 2009. The
           City had previously awarded a design-build contract for Terminal B at SJC in which TSA was
           not involved, that included four task orders totaling $25,023,637 for the baggage-handling




 Review of Costs Invoiced by the City of San Jose Relating to the Terminal B Checked Baggage Screening Project at the 

Norman Y. Mineta San Jose International Airport Under Other Transaction Agreement Number HSTS04-09-H-REC161 


                                                        Page 8
Appendix B
Management Comments to the Draft Report




                                                                                                                                 2

              system. Through the OTA, TSA provided Recovery Act funding in the amount of$20,916,360,
              which represenkd 90 percent of the estimated eligible project costs ($23,240,400). As of March
              31,2011, the City had invoiced costs of $14,387, 182.




              The resu1t.. of the audit detennint:d that approximately 1 percent of the costs invoiced by the City
              were questionable because they were not adequately supported by accQwning records.
              Specifically, the city invoiced $332,894 for insurance program costs, of which $78,802 was for
              general liability premiums. and $254,092 was for estimated future liability. While the 010
              believes that insurance program costs may be allocated to the CBIS project, the $254,092 is
              deemed unsupported because it is an estimate based on fumre costs. As the oro noted, Article
              IV of the OTA states that "TSA will reimburse the City on an actual expense basis ... " Insurance
              costs incurred by the City may be allowable under the terms of the OTA but are reimbursable
              only ao; they become actual incurred expenses. Since the questioned costs involve fhture
              insurance liability, TSA will recoup the $254,092 in the form of a credit in a future invoice and
              will instruct the City regarding futme reimbursement for only costs as incuned.

              The audit also detennined that TSA officials did not examine the City's compliance with the Buy
              American Act. As the OIG noted, the contractor did prepare a schedule of values, which
              included the names of subcontractors and vendors who provided the components for the work
              and identification of the American and foreign products used. While this schedule reflected that
              5.5 percent] of the estimated material costs \vere from nOIl~American sources, OIG was unable to
              validate the infomlation without documentation from the subcontractor and vendors certifying
              the source of the materials used. In order to verify that the goods used are in fact Buy American
              Act compliant, TSA will work with the City to obtain certitication of the sources of materials
              used in the cms project.

              TSA conclUS with both ofthe recommendations made in the subject draft report and will take the
              actions necessary to resolve these issues.

              Recommendation 1: TSA's Contracting Officer resolve the $254,092 of unsupported
              Owner-Controlled lnsurancc Program costs.

              TSA Concurs: As indicated above, TSA will work with the City to recoup $254,092 in
              unsupported future insurance liabiHty. This adjustment will be attained by TSA receiving a
              future invoke from the City reflective of a $254,092 reduction in total reimbursable CBIS costs.
              TSA \-vill also instruct the City regarding future reimbursement for only costs as incuned.

              Recommendation 2: TSA's Contracting Officer review the iron, sted and manufat1ured
              goods used in the CHIS project to determine whether the city complied with applicable
              "Buy American" requirements.




              ] DHS has a limited waiver for TSA's Electronic Baggagi,; Screening Program, which provides that up to 5 percent
              of the total project cos\.s may be for the purchase of non~American goods.




 Review of Costs Invoiced by the City of San Jose Relating to the Terminal B Checked Baggage Screening Project at the 

Norman Y. Mineta San Jose International Airport Under Other Transaction Agreement Number HSTS04-09-H-REC161 


                                                                Page 9
Appendix B
Management Comments to the Draft Report




                                                                                                           3

           TSA Concurs: In order to veri!)1 that the materials used arc compliant with Buy American Act
           requirements, the Contracting Officer will work with the TSA Contracting Officer's
           Representative (COR) and the City to obtain certification from the subcontractor and vendors.

           Additionally, the TSA Office of Acquisition has begun using a checklist to assist acquisition
           \vorkforce staff in assessing ,md monitoring Recovery Act recipient compliance with Buy
           American Act compliance. This checklist was provided to the OIG in TSA's 90-day update to
           OJG-ll-07. Final Report, [/<.;e of American Recovery and Reinvestment Act Funds by the TS'A/or
           the Electronic Baggage Screening Program (November 12.2010). This checklist ha<; been
           provided to the OIG as resolution for similar recommendations on other Recovery Act-related
           audits.




 Review of Costs Invoiced by the City of San Jose Relating to the Terminal B Checked Baggage Screening Project at the 

Norman Y. Mineta San Jose International Airport Under Other Transaction Agreement Number HSTS04-09-H-REC161 


                                                       Page 10
Appendix C
Major Contributors to this Report

                          Roger LaRouche, Director
                          Robert Leonard, Audit Manager
                          Karl Gallagher, Audit Manager
                          Enrique Leal, Report Referencer




 Review of Costs Invoiced by the City of San Jose Relating to the Terminal B Checked Baggage Screening Project at the 

Norman Y. Mineta San Jose International Airport Under Other Transaction Agreement Number HSTS04-09-H-REC161 


                                                       Page 11
Appendix D
Report Distribution

                          Department of Homeland Security

                          Secretary
                          Deputy Secretary
                          Chief of Staff
                          Deputy Chief of Staff
                          General Counsel
                          Executive Secretariat
                          Director, GAO/OIG Liaison Office
                          Assistant Secretary for Office of Policy
                          Assistant Secretary for Office of Public Affairs
                          Assistant Secretary for Office of Legislative Affairs
                          Departmental Recovery Act Coordinator
                          Acting General Manager, Checked Baggage Division/Program
                          Manager, Electronic Baggage Screening Program, TSA
                          Audit Liaison Official, TSA

                          Office of Management and Budget

                          Chief, Homeland Security Branch
                          DHS OIG Budget Examiner

                          Congress

                          Congressional Oversight and Appropriations Committees, as
                          appropriate




 Review of Costs Invoiced by the City of San Jose Relating to the Terminal B Checked Baggage Screening Project at the 

Norman Y. Mineta San Jose International Airport Under Other Transaction Agreement Number HSTS04-09-H-REC161 


                                                       Page 12
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
